     AUDIT REPORT 

HUMAN CAPITAL MANAGEMENT 

        Number A-04-07 

         July22,2004 

                                        SUMMARY 

The Office of the Inspector General audited Smithsonian Institution human capital
management. The purpose of the audit was to assess the steps being taken to reduce the
risk of human capital weaknesses that might affect the strategic objectives of the
Institution. We assessed the Institution's progress in implementing the Human Capital
Initiative of the President's Management Agenda and reviewed selected internal controls.
According to Institution management, "the Smithsonian is not governed by the Agenda"
because it is "a trust instrumentality of the United States," but it has voluntarily embraced
the Agenda's sound management principles for Federal human resources management.
Our audit focused on the Institution's progress and internal controls in the following
areas: timeliness in processing personnel actions; performance appraisals; succession
planning; performance measures for human capital; and the development of a human
capital plan. The scope of the audit included fiscal years 2002,2003, and 2004 through
May 28,2004.

The Institution has taken initial steps in addressing human capital challenges. However,
further improvements are needed to improve the Institution's progress in implementing
the Human Capital Initiative of the President's Management Agenda and best practices in
human capital management. We noted that improvements were needed in three areas:
(1) tracking timeliness in processing recruitment actions; (2) monitoring non-senior level
performance appraisals; and (3) implementing a succession planning system.

We made recommendations to:

    a   Complete reports for analyzing timeliness in processing recruitment actions; use
        these reports as management tools to evaluate delays; and take corrective action.
    a   Develop written timeliness standards for processing recruitment actions.
    a   Develop written guidelines on entering complete and consistent data into the
        human resources information system.
   a    Strengthen written procedures for monitoring the timeliness of performance
        appraisals.
    a   Establish baseline data and annual targets for completing performance appraisals,
        and assess progress against these targets.
   a    Establish schedules and milestones for implementing succession planning, and
        track these milestones on a periodic basis.

The Acting Director, Office of Human Resources, concurred with our recommendations
and provided implementation plans. We believe that these implementation plans are
responsive to our recommendations.
                                                 TABLE OF CONTENTS 



                                                                                                                                                   Pane 

1. Introduction .....................................................................................................................................1 


      A. Purpose .................................................................................................................................... 1 


      B. Scope and Methodology .........................................................................................................1 




2. Results of Audit ................................................................................................................................4 


        A. Timeliness in Processing Personnel Actions .........................................................................4 


        B. Non-Senior Level Performance Appraisals ...........................................................................8 


        C. Succession Planning............................................................................................................12 


Appendix A. Comments of the Acting Director, Office of Human Resources                                                .............................14 


                                      ABBREVIATIONS AND ACRONYMS                                                                      i 



                 ERP                                     Enterprise Resource Planning
                 HumRRO                                  Human Resources Research Organization
                 HRMS                                    Human Resources Management System
                 NFC                                     National Finance Center
                 OCIO                                    Office of the Chief Information Officer
                 OHR                                     Office of Human Resources
                 OMB                                     Office of Management and Budget
                 OPM                                     Office of Personnel Management
                 PAR                                     Personnel Action Request
                 SD                                      Smithsonian Directive




                                                                      iii
                                          INTRODUCTION 


A.    Purpose

The audit was included in our fiscal year 2004 plan because human capital management
weaknesses have been identified as one of the top five management challenges and
opportunities for the Institution. The purpose of the audit was to assess the steps being
taken to reduce the risk of human capital weaknesses that might impact the strategic
objectives of the Institution. We evaluated the Institution's progress in implementing the
Human Capital Initiative of the President's Management Agenda and reviewed selected
internal controls.

B.    Scove and Methodology:

The audit fieldwork was conducted from March 12,2004, to June 10,2004, in accordance
with generally accepted government auditing standards. We determined whether selected
internal controls were in place and whether adequate measures were being taken to
improve human capital management at the Institution. The scope of the audit included
internal controls and actions taken to improve human capital management in fiscal years
2002,2003, and 2004 through May 28,2004, in the following areas: timeliness in
processing personnel actions; performance appraisals; succession planning; performance
measures; and the development of a human capital plan.

To evaluate actions taken by the Institution to implement the President's Management
Agenda, we interviewed stafffrom the Office of the Chief Information Officer (OCIO);
the Office of the Deputy Secretary and Chief Operating Officer; the Office of Human
Resources (OHR); the Office of Planning, Management and Budget; the Office of Policy
and Analysis; the Office of the Under Secretary for Art; and the Office of the Under
Secretary for Science. We also interviewed representatives from the U.S. Office of
Management and Budget (OMB) and the Office of Personnel Management (OPM).

We reviewed quarterly scorecards for the President's Management Agenda for the period
March 2002 through March 2004. We reviewed the interagen'cy agreement between OPM
and the Institution for the development of the Institution's Strategic Human Capital and
Workforce Restructuring Plan. We reviewed the systems requirements for Phase I of the
Peoplesoft Human Resources Management System (HRMS) related to the processing of
personnel actions. We reviewed previous studies on the Institution's human resources
systems.

To determine the adequacy of selected internal controls, we reviewed policies and
procedures for processing personnel actions and annual performance appraisals. We
reviewed data in the Personnel Action Request (PAR) system on recruitment actions
completed in 2003 and 2004 through March 31,2004. The data on recruitment actions
was extracted from the PAR system by the systems analyst in OHR.' We reviewed the
data for completeness and reasonableness. We calculated the average times for different
phases of the recruitment process. We compared the Institution averages to a hiring
model developed by OPM. To verify the integrity of the data, we selected a random


' The PAR system did not include recruitment actions for the Smithsonian Business Ventures, the
Smithsonian Astrophysical Observatory, or the Smithsonian Tropical Research Institute local hires.


                                                      1

sample of recruitment actions from a population of 477 recruitment actions completed in
2003 and 2004, and reviewed the source documents in the recruitment action folder.

We reviewed OHR reports on calendar year 2003 performance appraisals for non-senior
level employees received in OHR and recorded in the National Finance Center (NFC)
personnel and payroll system.' To verify the integrity of OHR's reports, we selected a
random sample of employees and determined whether the appraisals were in the official
personnel folder in OHR. We also determined whether there were any appraisals in OHR
that had not been entered into the NFC database or had not been filed in the official
personnel folders. We reviewed OHR reports on annual performance appraisals and
performance plans for senior-level employees received at OHR. We selected a random
sample of senior-level employees to determine whether performance appraisals were
linked to the Institution's mission, goals, and outcomes.

C.    Background
The Office of Personnel Management (OPM) defines human capital management as the
"transformation of how we employ, deploy, develop and evaluate the workforce."
Human capital management focuses on placing the right people in the right positions to
effectively perform the work of the organization. Both OHR and managers at the units
are responsible for effective human capital management.

The President's Management Agenda (2001) is an aggressive strategy for improving
management in five government-wide initiatives: (1) human capital; (2) competitive
sourcing; (3) financial performance; (4) e-government; and (5) budget and performance
integration. OMB and OPM evaluate 26 listed entities, including the Institution, on a
quarterly basis, on their status in executing the human capital initiative, as well as their
progress in meeting planned actions and other milestones. OMB issues a scorecard with a
"trafficlight" grading system: green for success, yellow for mixed results, and red for
unsatisfactory. According to OPM representatives, in order to get a yellow score for
status, an agency must develop and implement human capital strategies. In order to get a
green score for status, agency must develop, implement, and show results in human
capital initiatives.

According to Institution senior management, "though as a trust instrumentality, the
Smithsonian is not governed by the mandates of the Agenda, we embrace many of its
sound management recommendations and have begun coordinating human capital
improvement efforts with the Office of Personnel Management and the Office of
Management and Budget."

Agency scores are based on standards for success defined by OMB and OPM. OPM
developed a Human Capital Assessment and Accountability Framework that provides
consolidated guidance on human capital. The Framework sets forth six human capital
standards for success: strategic alignment, workforce planning and deployment,
leadership and knowledge management, results-oriented performance culture, talent, and
accountability. The Framework also provides guidance on achieving these standards,
such as critical success factors, suggested performance indicators, and other best practices
for human capital management.

 The reports did not include performance appraisals for the Smithsonian Business Ventures or the
Smithsonian Tropical Research Institute local hires.
The Institution has received "red" scores for status on the human capital initiative since
the scorecard was implemented in March 2002. Scores for progress, which are affected by
the agency's ability to meet established and agreed timelines, have fluctuated between
"yellow" and "red". However, from March 2003 to March 2004, the Institution received
"red" scores for both progress and status on the human capital initiative.

The Institution has taken initial steps to address its human capital weaknesses. With the
assistance of an outside consultant, in May 2004, the Institution completed the
Smithsonian-Specific Strategic Human Capital and Workforce Re-Structuring Plan
(SCHWRP):Project Roadmap. The "roadmap" included (1) descriptions of the
Institution's key human capital challenges; (2) strategies and initiatives to address these
challenges; (3) detailed implementation steps, timeframes and costs; and (4) measures to
evaluate results of initiatives. The contractor projected that implementation of the
roadmap would take five years.

The Institution has begun implementing some of these strategies, such as organizational
restructuring, linking senior-level performance plans to the Institution's strategic plan,
and defining initial performance metrics for human capital. Beginning in October 2004,
the Institution will replace its current human resources system with the Peoplesoft
Human Resource Management System (HRMS). The HRMS is scheduled to be
implemented in four phases throughout fiscal years 2005 and 2006.
                                  RESULTS OF AUDIT

A. Timeliness in Processing Personnel Actions

The Office of Human Resources (OHR) was not tracking average times for processing
recruitment actions. OHR was not tracking these times because the current Personnel
Action Request (PAR) system was not designed to calculate average times for processing
personnel actions by type of action, such as recruitments. OHR also had not established
complete timeliness standards for processing recruitments. As a result, OHR did not have
adequate information to analyze delays or make process improvements on an Institution-
wide basis. Delays may reduce OHR's ability to meet the needs of its customers. Delays
also increase the risk that the units may lose qualified applicants to other employers.
During fiscal year 2004, OHR began correcting these weaknesses.

Background
    -



OHR tracks recruitments and other types of personnel actions using the Personnel Action
Request (PAR) system. The current PAR system is a separate system that is not integrated
with other applications. This system is scheduled to be replaced by the PeopleSoft
Human Resources Management System (HRMS). The Institution will implement HRMS
in four phases, with Phase I scheduled for implementation in October 2004.

Smithsonian Directive (SD) 115, Management Controls, dated July 23,1996, states that
transactions should be promptly recorded, properly classified, and accounted for to
prepare timely accounts and reliable and financial and other reports.

Internal procedures, entitled Management Support Division Customer Service Standards,
dated March 31,1999, issued by OHR, state that the Management Support Division will
ensure that all transactions are effected in a timely manner and that employment records
and information are accurate.

The Office of Personnel Management (OPM) Human Capital Standards for Success state
that agency human capital decisions should be guided by a data-driven, results-oriented
planning and accountability system. OPM provides a listing of suggested performance
indicators. This listing includes "average time to hire" as a suggested metric for
recruitments. In May 2004, OPM developed a model of 45 work days for the portion of
the hiring process that covers the time from the close of a vacancy announcement to
when an offer is made. Beginning in the fourth quarter of fiscal year 2004, OPM will also
be looking at whether an "agency has a regular, auditable system for collecting and
analyzing data on the actions of the hiring process."

Results of Review
OHR was not tracking average times for processing recruitment actions. OHR was using
the PAR system primarily to determine the status of a recruitment action, i.e., what phase
of the process the recruitment action was in, such as classification, announcement, rating
and ranking, or interviewing. Although OHR staff entered the dates that different phases
in the recruitment process were completed, the system did not produce reports that
calculated average times for recruitment actions. OHR staff reviewed the status of
recruitment actions at the transaction level, on a case-by-case basis. On an Institution-
wide basis, OHR was not analyzingprocess delays, the causes of these delays, or
overarchingtrends.
We calculated average times for 419 recruitment actions completed in 2003 and 2004
through March 31,2004. We compared these times to the OPM model of 45 work days
for the phase of the hiring process that covers the time from the close of a vacancy
announcement to when an offer is made.' We found that the Institution's average time
for this phase of the hiring process was about 62.5 work days. Our calculations for this
phase of the recruitment process and components of this phase were:

         Average number of days from close of vacancy announcement to selection (rating,
         ranking, and interviewing): 87.5 calendar days, or about 62.5 work days.
         Average number of days from close of vacancy announcement to certificate of
         eligibility (rating and ranking): 50.2 calendar days, or about 35.9 work days.
         Average number of days from certificate of eligibility to selection (interviewing):
         37.3 calendar days, or about 26.6 work days.

In our review of a sample of recruitment actions in 2003 and 2004, we noted that delays
may occur at OHR or the units. Because there is a lot of interaction between OHR and
the units at every phase of the process, we could not readily determine where the delays
occurred. We also noted that in some cases, the units participated in the rating and
ranking of candidates.

OHR has begun correcting weaknesses in the tracking process. In Phase I of the HRMS
implementation, several improvements will be made. OCIO staff is developing a time-
lapse report that calculates the average time to process different types of personnel
actions, including recruitments. OCIO is in the process of obtaining user input and
refiningthe time-lapse reports. OHR plans to test the reports in June, July, and August
2004, and implement the reports in October 2004 (Phase I of the HRMS
implementation). Moreover, the tracking capability will be part of an integrated system,
allowing greater access to Peoplesoft tables of employee and position information, and
requiring less manual data entry.

OHR has also begun addressing delays in certain phases of the recruitment process.
Effective October 2004 (Phase I of the HRMS implementation), the units will
electronicallysubmit requests to fill positions to OHR. OHR is also in the process of
developing an automated position description library, which should facilitate the
development of position descriptions.

OHR plans to improve the timeliness of personnel action processing by implementing
QuickHire, an electronic application,rating, and ranking system, in Phase IV (scheduled
for fiscalyear 2007).' The HRMS Steering Committee approved the recommendation to
use QuickHire on May 5,2004. QuickHire will allow the Institution to receive
applications electronicallyand, for all types of positions advertised through QuickHire,
will provide an automated system of rating and ranking applications.

-   -



' This 45-day model for hiring was issued in a memorandum, dated May 6,2004, from the Director, Office
of Personnel Management.
' The Institutionis pursuing funding for this software in the fiscal year 2006 budget request.
OHR was not tracking average times for recruitment actions because of several reasons,
including: (1) an inadequate system, (2) incomplete timeliness standards, and (3)
incomplete data.

Inadequate System - OHR management advised that the current PAR system was never
intended or designed to measure or generate reports on average times for processing
personnel actions by type of personnel action, such as recruitment actions. The system
was designed primarily to provide the status of an action.
Incomplete Timeliness Standards - OHR had not developed complete standards on
average times for completing recruitment actions. Current standards provide timeframes
for when particular phases should begin, but do not indicate how long it should take to
complete certain phases or the entire recruitment process. For example, one standard
states that activity on rating applications will begin no later than 5 days after the close of
the announcement but does not give a timeframe for completion.
Incomvlete and Inconsistent Data - Data entered into the PAR system was not always
complete or consistent. For example, for completed recruitments, in the field "selection
date," 47 out 466 records, or 10.1 percent, were blank. In the field "draft announcement
completion date," 74 out of 466 records, or 15.9 percent, were blank. For multiple hires
from the same announcement, the "in date" of the request for hire was not always
consistent. In some cases, units were sending in the request for hire (Form 52) for
additional hires after the original request was sent in and most of the recruitment process
had been completed. This problem with multiple hires occurred in 67 out of 466, or 14.4
percent of the records.
As a result, OHR did not have adequate information to analyze trends or make process
improvements on an Institution-wide basis. Also, without complete timeliness standards,
OHR could not compare actual recruitment times to standards and establish targets for
improvement.
Delays in the processing of recruitment actions increase the risk that the Institution may
lose qualified applicants to other employers. Applicants may accept positions from other
employers rather than wait for a decision by the Institution. Also, lengthy processing
times may discourage applicants from applying in the first place.

Delays in the recruitment process also reduce OHR's ability to meet the needs of its
customers. Several studies have identified concerns about the timeliness of processing
personnel actions. For example, an Institution-wide customer satisfaction study of OHR
services, dated November 2002, found that 26 percent of OHR customers were somewhat
dissatisfied and 15 percent were very dissatisfied with the timeliness of referral of
candidates for vacancies. The study also stated that the primary way that OHR can
increase customer satisfaction is to improve timeliness of services, especially those
regarding personnel actions.
Conclusion

Improvements are needed in the tracking of recruitments to analyze delays and make
improvements in the timeliness of recruitment actions. OHR has begun correcting
weaknesses in the tracking process. The lengthy hiring process has become an important
issue government-wide. Civil service experts are concerned that the government's hiring
process may discourage people from seeking federal employment and that the
government may be losing some of the best applicants.

Recommendation

We recommended that the Acting Director, OHR:

   1. 	 Finalize PeopleSoft HRMS reports for calculating average times for processing
       recruitment actions (in conjunction with OCIO), use these reports as
       management tools to evaluate where delays occur and the causes of these delays,
       and take corrective action.

   2. 	 Develop written timeliness standards for processing recruitment actions, 

        including the various phases of the recruitment process. 


   3. 	 Develop written guidelines on entering complete and consistent dates into the
        PeopleSoft HRMS.

Management
    -      Comments

   I. 	 Concur. OHR, working with OCIO, will ensure that PeopleSoft HRMS reports
        will calculate average times for processing recruitment actions. (Target completion
        date: first quarter, fiscal year 2005) OHR will use those reports to evaluate the
        process and take corrective action. (Target completion date: second quarter, fiscal
        year 2005)

   2. 	 Concur. OHR will revise their current customer service standards to include more
       specific timeliness standards for recruitment actions. This standard should
       incorporate the results of the OHR process study, take into account complexity
       and recruitment strategies, and relate to the OPM model. (Target completion
       date: first quarter, fiscal year 2005)

   3. 	 Concur. OHR, working with OCIO, will develop Standard Operating Procedures
        for entering data into PeopleSoft HRMS. (Target completion date: first quarter,
        fiscal year 2005)

Officeof the Insvector General Response

The Acting Director's planned actions are responsive to our recommendations.
B. Performance Appraisals for Non-Senior Level Employees

According to OHR's records, as of April 26,2004, approximately 44 percent of eligible
non-senior level employees did not have performance appraisals for calendar year 2003
on file in the official personnel records. Several factors contributed to this condition,
including weak monitoring procedures prior to 2004 and a lack of a uniform appraisal
cycle prior to calendar year 2003. Timely performance appraisals help management
ensure that individual performance is linked to organization goals and desired results.
OHR has begun addressing these weaknesses. In April 2002, OHR issued a memorandum
to all units stating that all non-senior employees will be evaluated on a calendar year basis.
Calendar year 2003 was the first full year that all non-senior level Smithsonian employees
were on the same appraisal cycle. In 2004, OHR began sending reminders to the units.

Background

We reviewed OHR reports on calendar year 2003 performance appraisals for non-senior
level employees received in OHR and recorded in the National Finance Center (NFC)
personnel and payroll ~ystem.~  To verify the integrity of OHR's reports, we selected a
random sample of employees and determined whether the appraisal was in the official
personnel folder in OHR. We also determined whether there were any appraisals in OHR
that had not been entered into the NFC database or had not been filed in the official
personnel folders. Our review focused on controls in OHR. We did not interview unit
managers.

Unit supervisors and OHR are responsible for the Institution's performance appraisal
system. Unit supervisors are responsible for developing the performance plan, and
completing and submitting the performance appraisal to OHR on time. OHR is
responsible for (1) providing guidance on performance appraisals; (2) reviewing the
performance appraisals for compliance with Institution policy (e.g., appropriate
signatures); (3) recording the rating in the NFC personnel and payroll system; (4) filing
the performance appraisal in the official personnel folders; and (5) tracking and
monitoring performance appraisals.

The Institution is implementing Peoplesoft Human Resources Management System
(HRMS) to improve its human resources processes. Performance appraisals are included
in Phase IV, which is scheduled to be implemented in fiscal year 2006. OHR is looking at
modules for recording performance appraisals electronically.

Smithsonian Directive 212, Federal Personnel Handbook, Chapter 430, Performance
Management System, dated August 3,1987, states that each employee who has been on a
performance plan for 120 days will receive an annual written appraisal at the end of the
appraisal period. Copies of all performance appraisals should be sent to OHR. The
Directive further states that continuous evaluation will occur through summary
evaluations of performance appraisals prepared and submitted to the Secretary by OHR at
the end of each year.
Title 5 CFR Section 430.208 (a) states that a written, or otherwise recorded, rating of
record shall be given to each employee as soon as practicable after the end of the appraisal
 The reports did not include performance appraisals for the Smithsonian Business Ventures or the
Smithsonian Tropical Research Institute local hires.


                                                     8
period. OPM officials advised that the "best practice" for a majority of agencies is to give
appraisals to employees within 30 days after the end of the appraisal period. OPM
advised that a timeframe is usually included in the agency's internal personnel policies
and procedures.

OPM Human Capital Standards for Success state that agencies should have a performance
management system that effectively differentiates between high and low performance and
links individual, team, and unit performance to organization goals and desired results.
One of the elements of the system is that performance expectations are communicated in
a timely fashion.

Results of Review

According to OHR's records, as of April 26,2004, approximately 44 percent of eligible
non-senior level employees did not have performance appraisals for calendar year 2003
on file in the official personnel records. OHR's reports on completion percentages by
unit indicate that this condition was widespread throughout the Institution.

Several factors contributed to this condition, including but not limited to weak
monitoring procedures prior to 2004 and a lack of written procedures.

    1. 	 Weak monitoring practices prior to January 2004 - Prior to January 1,2004 (for
         the 2003 calendar year appraisal period),.OHR did not actively monitor annual
         performance appraisals. OHR did not prepare or send reports on appraisals to
         management or the units on a regular basis. Reports were generally prepared on
         an ad hoc basis or as requested by management. Appraisals were difficult to
         monitor because employees were on different appraisal cycles.

   2. 	 Lack of a uniform appraisal cycle prior to 2003 - Prior to calendar year 2003, all
        employees were not on a uniform appraisal cycle. In April 2002, OHR issued a
        memorandum to all units stating that all non-senior employees will be evaluated
        on a calendar year basis, i.e., January 1 through December 31. Calendar year 2003
        was the first full year that all non-senior level Smithsonian employees were on the
        same appraisal cycle.

   3. 	 Lack of written procedures - OHR had not established written procedures with
        specific timeframes for the units to submit performance appraisals to OHR. They
        also had not established written procedures with specific timeframes for sending
        reminders to the unit supervisors and reports of delinquent appraisals to senior
        management.

OHR began improving monitoring practices in calendar year 2004. On January 9,2004,
OHR sent a memorandum to the units stating that 2003 appraisals should be completed
and sent to OHR as soon as practicable. On April 1,2004, OHR sent a reminder to the
units, along with a report that showed 2003 appraisals received and on record in OHR.
On April 27,2004, OHR sent detailed reports of 2003 appraisals received and on record to
the Deputy Secretary. OHR management advised that, in the future, they hope to send
the appraisal reports out earlier than April.
Timely performance appraisals help management ensure that individual performance is
linked to organization goals and desired results. Performance appraisals are an important
mechanism for providing timely feedback to employees about their performance.

Also, without performance appraisals on record in OHR, supervisors may not have
adequate documentation to support certain performance-based actions, service credit for
reduction-in-force purposes, and certain performance awards. For example, Federal
employees undergoing reduction-in-force procedures are entitled to additional service
credit based on performance. Employees receive credit for the latest three annual Federal
performance ratings received during the four-year period preceding the RIF notice. Each
rating is assigned a value, and credit is based on the average of the three ratings.
According to Institution policy, the rating must have been issued to an employee with all
appropriate reviews and signature, and received by OHR.

Conclusion

Institution supervisors and OHR did not yet have sufficient controls in place to ensure
that all non-senior level employees received performance appraisals timely. The
Institution has begun improving these controls. In April 2002, OHR issued a
memorandum to all units stating that all non-senior employees will be evaluated on a
calendar year basis. Calendar year 2003 was the first full year that all non-senior level
Smithsonian employees were on the same appraisal cycle. In 2004, OHR began sending
reminders to the units, along with detailed reports of appraisals received and on record in
OHR. However, controls need to be further strengthened in order to increase the number
of performance appraisals on file in the official personnel records in OHR.

Recommendation
We recommended that the Acting Director, OHR:

    1. 	 Strengthen OHR's written procedures for monitoring the timeliness of
         performance appraisals by developing specific timetables for (1) submitting
         appraisals to OHR, (2) sending reminders to unit supervisors, and (3) reporting
         missing appraisals to senior management.

   2. 	 Establish baseline data and annual targets for the number of performance 

       appraisals on record in OHR and assess progress against these targets. 


Management
    -      Comments

    1. 	 Concur. OHR will develop specific timetables for the performance management
         program for non-senior level employees in the three areas listed above. (Target
         completion date: first quarter, fiscal year 2005)

   2. 	 Concur. OHR will establish baseline data and annual targets. (Target completion
        date: fourth quarter, fiscal year 2004) OHR will assess progress against targets.
        (Target completion date: second quarter, fiscal year 2005)
Office of the Inspector General Response 


The Acting Director's planned actions are responsive to our recommendations. 

C. Succession Planning

The Institution did not have a succession planning system in place. The Institution is
faced with several unique challenges, including two major personnel systems (Federal and
Trust) and very diverse disciplines. The lack of a succession planning system increases the
risk that the Institution may not have enough qualified candidates to fill leadership
vacancies. A lack of continuity in leadership could affect the Institution's ability to
achieve its mission. The Institution has begun addressing this weakness.

Background

The 0 k c e of Management and Budget (OMB) Human Capital Standards state that the
agency should "implement succession strategies, including structured executive
development programs, to assure continuity of leadership."

OPM Human Capital Standards for Success state that the agency should ensure that "a
formal succession planning management program is in place that includes a review of
current and emerging leadership needs in light of strategic and program planning,
identifies sources of key position talent and provides for assessing, developing and
managing the identified talent."

Results of Review

The Institution did not have a succession planning system in place. The Institution is
faced with several unique challenges, including two major personnel systems (Federal and
Trust) and very diverse disciplines. There is no standard model for succession planning
that the Institution can follow. In some Federal agencies, succession planning models are
tied to Senior Executive Service ("SES") candidate development programs. (OPM has
ruled that the Institution is not covered by the SES provisions of Title 5, and thus does
 not have the authority to have SES positions.)

The Institution has taken initial steps toward the development of a succession planning
system by identifying key succession positions and potential successors. The Institution
has identified potential internal succession candidates for top level positions, such as
directors of museums, research centers, and major pan-Institutional offices. The
Institution has also identified key positions within these units below the director level that
should be included in the next level of succession management planning.

The Institution has also begun studying internal leadership development initiatives. The
Institution is in the process of (1) reviewing inter-unit details and job rotation
opportunities; (2) analyzing flexible career tracks, such as a curator career track; and (3)
considering the establishment of appropriate structured leadership training.

An outside consultant, the Human Resources Research Organization ("HumRRO"),
completed a roadmap for improving human capital management on May 3,2004. In
their report, HumRRO recommended that the Institution develop succession planning
and leadership development policies and programs. HumRRO outlined a five-step
process for developing a succession planning system: (1) develop a succession planning
model; (2) develop and validate a leadership competency model; (3) design and
implement a senior leader candidate screening process; (4) design a senior leader
development program; and (5) develop a plan to cascade the process down to manager
and supervisor levels. HumRRO indicated in their report that succession planning will be
a multi-year project.

The lack of a leadership development program increases the risk that the Institution may
not have enough qualified candidates to fill leadership vacancies. A lack of continuity in
leadership could affect the Institution's ability to achieve its mission.

Conclusion

The Institution needs to develop and implement succession planning and leadership
development programs in order to ensure that it can meet its leadership needs. The
Institution has begun doing so with the identification of key positions and potential
internal successors. We believe that the five-step process for developing a succession
planning system outlined by HumRRO in their May 2004 report provides a good
roadmap for this process. OHR should establish schedules and milestones for
implementing a succession planning system, and track progress against these milestones.

Recommendation

We recommended that the Acting Director, OHR, establish schedules and milestones for
implementing succession planning, as outlined in the HumRRO Human Capital and Re-
structuring Plan, and track these milestones on a periodic basis.

Management Comments
                                                                                             I

Concur In Principle. The Institution is forming a Human Resources Coordinating
Committee, which will decide on how to prioritize the recommendations in the
HumRRO report. The succession planning milestones may thus not match exactly those
in the HumRRO report. The Human Resources Coordinating Committee will set human
capital priorities and approve milestone schedules. (Target completion date: first quarter,
fiscal year 2005) OHR will track milestones on aperiodic basis. (Target completion date:
quarterly following issuance of schedule)

Office of the Inspector General Response

The Acting Director's planned actions are responsive to our recommendation.
Appendix A. Management's Comments




 '   0          Smithsonian Institution

        OMw of Human Reaoumea



        Date: 	              July 20,2004

        From: 	              James Douglas 

                             Acting Director, Office of Human Resources 


        To: 	                Thomas D. Blair 

                             Inspector General 


        Subject: 	           Response to Inspector General Draft Report on Human Capital
                             Management (Number A-04-07)


        The Office of Human Resources (OHR) has reviewed draft report A-04-07, Human Capital
        Management, and we concur with all of the recommendations. Our planned actions and
        target dates are provided in Attachment 1, and our specific comments and corrections are
        provided in Attachment 2. We are pleased that the report reflects that OHR had already
        begun to address the process issues raised in report.

        Although the report properly identified some processes needing improvement, we continue
        to excel in certain critical areas. Among other successes, the growth and stability of the
        Smithsonian's outstanding leadership team has underscored our ability to recruit and retain
        high-performing employees.

        The Smithsonian is continuing to improve its human resource processes and results -
        changing not only the form but also the substance of our human resources programs. While
        the President's ManagementAgenda does not apply to the Smithsonian, we embrace its
        good, common sense approach to Federal human capital issues.

        In this regard, we continue to enhance our human capital management programs, as the
        following recent accomplishments indicate:

                   Received Strateaic Human Capital &Workforce Restructurincr Plan Roadmar, and
                   performed initial analysis;
                   Realigned orqanizational structure with creation of Deputy SecretaryIChief
                   Operating Officer to provide improved coordination of administrativefunctions;
                   Linked all senior-level performance ~ l a n to
                                                               s the Smithsonian's strategic plan;
                   Implemented strateaies to address under-representation, such as our Hispanic
                   Recruitment Plan;
                   Began succession management initiative;
                   Developed a broad set of metrics to measure OHR performance;
                   Continued implementation of the Peoplesoft HR Svstem;
                   Began development of an automated Position Descri~tion(PD) library (expected
                   to be completed by January 2005; database currently contains over 500 PDs);
AppendixA. Management's Comments (continued)




                  Began system of performance manaaementremindersthroughoutthe
                  performance cycle; and
                  Initiatedactions to obtain contractor support for a review of the Smithsonian's
                  human resources processes, a limited workforce analysis, and succession
                  manaaement su~port(completedstatement of work and anticipatethat the Office
                  of Personnel Management will issue task order in late Julylearly August).

        Of the areas above, you had originally indicatedthat the audit would encompassthe
        developmentof the human capital plan, metrics, and senior-level performance appraisals.
        We are pleased that our efforts in these areas did not result in any recommendations.

        All of the above activities are all part of the Smithsonian's larger human capital reform
        efforts, includingthose areaswhere recommendationswere made. It is importantto
        recognizethis larger context: we will be addressingyour recommendationswith steps that
        were already planned as part of our human capital managementefforts.

        We appreciated for the opportunity to review this draft report. If you have any questions
        about our comments, please contact me at (202) 275-1100, or your staff may contact Greg
        Bettwy at (202) 275-0943.


        Attachments
Appendix A. Management's Comments (continued)
-


                                                                                        Attachment I

            SUMMARY OF INSPECTOR GENERAL RECOMMENDATIONSAND UNIT RESPONSE


           Issue Area: 	             Timeliness in Processina Personnel Actions

           Recommendation #I: Finalize PeopleSoft HRMS reports for calculating average times
                              for processing recruitment actions (in conjunction with OCIO),
                              use these reports as management tools to evaluate where
                              delays occur and the causes of these delays, and take corrective
                              action.

           Response: 	               Concur.

           ~linned
                 ActionslTargets: 	 OHR, working with OCIO, will ensure that PeopleSoft HRMS
                                    reports will calculate average times for processing recruitment
                                    actions
                                    (First quarter, fiscal year 2005)
       *
                                     OHR will use those reports to evaluate the process and take
                                     corrective action
                                     (Second quarter, fiscal year 2005)

           Recommendation #2: 	      Develop wriien timeliness standards for processing recruitment
                                     actions, including the various phases of the recruitment process.

           Response: 	               Concur.

           Planned Actionsllargets: 	 OHR will revise their current customer service standards to
                                      include more specifc timeliness standards for recruitment
                                      actions. This standard should incorporate the results of the OHR
                                      process study, take into account complexity and recruitment
                                      strategies, and relate to the OPM model.
                                      (First quarter, fiscal year 2005)

           Recommendation #3: 	      Develop wriien guidelines on entering complete and consistent
                                     dates into the PeopleSoft HRMS.

           Response: 	               Concur.

           Planned Actionstrargets: OHR, working with OCIO, will develop Standard Operating
                                    Procedures for entering data into PeopleSoft HRMS
                                    (First quarter, fiscal year 2005)


                                                       1
Appendix A. Management's Comments (continued)




          Issue Area: 	             Performance A~~raisals
                                                        for Non-Senior Level Em~lovees

          Recommendation#I: 	      Strengthen OHR's written procedures for monitoring the
                                   timeliness of performance appraisals by developing specific
                                   timetables for 1) submitting appraisals to OHR, 2), sending
                                   reminders to unit supervisors, and 3) reporting missing
                                   appraisals to senior management.

          Response: 	               Concur.

          Planned Actionsrrargets: 	 OHR will develop specific timetables for the performance
                                     management program for non-senior level employees in the
                                     three areas listed above
                                     (First quarter, fiscal year 2005)

          Recommendation#2: 	      Establish baseline data and annual targets for the number of
                                   performance appraisals on record in OHR and assess progress
                                   against these targets.

          Response: 	              Concur.

          Planned Actionmargets: 	 OHR will establish baseline data and annual targets
                                   (Fourth quarter, fiscal year 2004)

                                   OHR will assess progress against targets
                                   (Second quarter, fiscal year 2005)

          Issue Area: 	            Succession Planning

          Recommendation #1: 	     Establish schedules and milestones for implementing succession
                                   planning, as outlined in the HumRRO Human Capital and
                                   Restructuring Plan, and track these milestones on a periodic
                                   basis.

          Response: 	              Concur In Principle. The Institution is forming a Human
                                   Resources Coordinating Committee, which will decide on how to
                                   prioritize the recommendations in the HumRRO report. The
                                   succession planning milestones may thus not match exactly
                                   those in the HumRRO report.

          Planned Actionsffargets: The Human Resources Coordinating Committee will set human
                                   capital priorities and approve milestone schedules.
                                   (First quarter, fiscal year 2005)

                                   OHR will track milestones on a periodic basis
                                   (Quarterly following issuance of schedule)

                                                     2
Appendix A. Management's Comments (continued)



                                                                                           Attachment 2

                                            SPECIFIC COMMENTS


         Summary, First Paragraph

               You currently mention the President's Management Agenda both in the summary
         (page ii) and in the report. In the report, you provide the appropriate caveats explaining the
         Smithsonian's positionon the President's Management Agenda; that is not included in the
         summary.

               We recommend that you expand the summary to include the fact that, while the
         Smithsonian is not governed by the Agenda due to our status as a trust instrumentality of
         the United States, we have voluntarily embraced its sound management principles for
         Federal human resources management.

         Page 9, First Paragaph, Last Sentence

               This sentence currently reads, "OHR began addressing these weaknesses in
         calendar year 2004." As part of the effort to improve performance management included
         changing the performance cycles, OHR actually began addressing the weaknesses in
         calendar year 2002.

         Page 10, Results of Review Section, Second Paragraph, First Sentence

               The sentence currently reads, 'Several factors contributed to this condition, including
         weak monitoring procedures...." We suggest that this sentence be changed to read,
         'Several factors contributed to this condition, including but not limited to weak monitoring...."
         There are certainly other factors that contributed to the condition.

         Page 10, Results of Review Section, Factor #(Weak
                                                      I    monitoring), Second to Last
         Sentence

                This sentence current reads, 'Reports were only prepared on an ad hoc basis." This
         sentence should be changed to read, 'Reports were generally prepared on an ad hoc basis
         or as requested by senior management." For a period, the reports were being requested
         and sent regularly.

         Page 10, Results of Review Section, Third Paragraph, First Sentence

                 Reflecting our first comment above, this sentence should be changed to reflect that
         the initial efforts to address the weaknesses in the performance management process
         began with the cycle change in calendar year 2002.




                                                        1
Appendix A. Management's Comments (continued)




           Page 11, Conclusion, Second Sentence.

                    Reflecting the comments, above, this sentence should be changed to reflect that the
           initial efforts to address the weaknesses in the performance management process began
           with the cycle change in calendar year 2002.

           Page 12, Results of Review Section, Third Paragraph

                 The reference to the establishment of a 'Smithsonian College" is premature. That
           should read as follows: "...(3)considering the establishment of appropriate structured
           leadership training."




                                                        2
